No.19-71
IN THE

FNU TANZIN,

et al.,

v.
MUHAMMAD TANVIR,

et al.,

Petitioners,

Respondents.

ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

CERTIFICATE OF SERVICE

I, Alan E. Schoenfeld, a member of the bar of this Court, hereby certify that, on
this 12th day of February, 2020, all parties required to be served have been served
copies of the Brief of Statutory Interpretation Scholars in Support of Respondents in
this matter by electronic mail and overnight courier to the addresses below.

Counsel for Petitioners

Counsel for Respondents

NOEL J . FRANCISCO
SOLICITOR GENERAL
UNITED STATES DEPARTMENT OF JUSTICE

RAMZI KASSEM
CITY UNIVERSITY OF NEW YORK
SCHOOL OF LAW
MAIN STREET LEGAL SERVICES, INC.

950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
Su premeCtBriefs@USDOJ.gov

2 Court Square
Long Island City, NY 11101
(718) 340-4558
ramzi.kassem@law.cuny.edu

~E~Pv

ALANE. SCHOENFELD
WILMER CUTLER PICKERING
HALE AND DORR LLP

7 World Trade Center
250 Greenwich Street
New York, NY 10007
(212) 937-7518
alan.schoenfeld@wilmerhale.com

